No. 20-255

Su the Supreme Court of the Gnited States

Mahanoy Area School District,
Petitioner,

Vv.

B.L., a minor, by and through her father,
Lawrence Levy, and her mother, Betty Lou Levy,
Respondenis.

On Writ of Certiorari to the
United States Court of Appeals
For the Third Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae Jane Bambauer, Ashutosh Bhagwat, and Eugene Volokh in the above-
entitled case complies with the typeface requirement of Supreme Court Rule
33.1(b), being prepared in Century Schoolbook 12 point for the text and 10 point for
the footnotes, and that the Brief of Amici Curiae contains 2,996 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Or

Executed on March 29, 2021.

Stuart. Banner

UCLA School of Law
AOS Hilgard Ave.

Los Angeles, CA 90095
(310) 206-8506
banner@law.ucla.edu
Counscl for Amici Curiac
